I


.I 'r    +
                                       NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GEE~ERAL
                                          OFFICE OF INVESTIGATIONS

                                  CLOSEOUT MEMORANDUM
                                                                                                              Il
TO: AIGI         File Number: I93020007                                         I   Date: 11 March 2002

Subject: Closeout Memo
                                                                                I           Page 1 of 1


        There was no closeout written at the time this case was closed. The following information was
        extracted fiom the file in conformance with standard closeout documents.

        Our office was informed that the subject1was alleged to to have violated NSF's Conflict of Interest
        policy. The Office of General Counsel determined that the subject has a permanent post-
        employment restriction with regard to a particular grant2 at the subject's institution3.
                                 .
                                 !
                                               ' y . 3 0 2 uo   7




                        Possible Conflict of Interest Involving Dr.   -   ----.,
                                                                             I




              Dr.              was employed as the Co-Program Director of NSP's

                                     )program from Septembe-                 through August-

    On s e p t e m b e m , D           r        . her employment as Acting Principal Investigator (PI)

    on the-             University         award. Based upon this, NSF's Office of Inspector General

    (OIG)reviewed the conflicts advicedeDr.
                                        vi .                          from NSF with regards to post-

    employment restrictions. We found no evidence that Dr. i o l a t e d any post-employment

    restrictions, although we questioned the conflicts advice she received from NSF.
t


    Basis for Invedgation




    -
    Dr.




    on
          ,
              During her tenure at NSF, ~




          the-^
                                                    -
                                                        rand the other

                             oversaw the inception of the implementation awards under the

    program and in November 19 , recommended that

                       and five other universities.     In the spring of 1



                               award. Those negotiations culminated on July-,

                       formally offered Dr.
                                                                                   , Dr.   -
                                                                                   Co-Program Director,



                                                                    cooperative agreements be awarded

                                                                                                 began

    negotiating with u n i v e r s i t y officials for the position of Principal Investigator (PI)

                                                                                            when m

                                                        the PI position and she accepted. On August
           1    , ~r.-           resigned from her NSF position to begin work as Acting PI on the

    -Ah@                   award.




    determine whether there had been any violations of 18 U.S.C. Section 208: acts affecting a

    personal financial interest, Section 207: restrictions on former employees of the executive and

    legislative branches; or NSP conflict of interest regulations as set out in Manual 15.



    Method of InvesQ@on




                 -
               We interviewed ~ r .                Dr                    ,         Division and Deputy

    Division Directors, NSF's Acting Designated Agency Ethics Official (DAEO), the Office of
)
    General Counsel (OGC) attorney who conducted Dr.                    exit interview, and the former

    PI on the                        award. We also reviewed ~ r .               official NSF personnel

    file and division conflicts file, and t                     h award files.




               NSF's         program was initiated in 1      to increase participation by minorities in

    science and engineering fields.           is administered through the Division of

                               in the Directorate                                                     .

    Dr. w        a       s hired in September 19     to manage and direct the           program and to
     4
         oversee the initial          awards. Dr.                            was hired in early January 19 1 as Co-
iI


         Program Director of                   Drs. w       a   n     d            s h a d responsibility for
                                                                                                                        I
         management and direction.                                                                                      i

               In late January 19 1,                  implementationproposals from universities nationwide were

         submitted to NSF. Dr.                        recused himself in writing from any dealings with the

         proposal submitted by                           University                 because he was the PI on the

                                                                                                                        ~
                                                                                                                        I
         0University /                                       planning grant prior to his NSF employment.




                                                                                                                 -
         Dr.               told us that she followed Dr. s-                 lead, and recused herself from handling     I




         any proposals submitted by-universities,                   since she believed she would return -in

         the future and wanted to avoid any possible conflicts of interest with .BII)universities.

         D       r        . however, did not recuse herself in writing from involvement with

         universities, as Dr-.                  had, and ~r.-oes                     not recall D
                                                                                                -                ever

         mentioning any such informal recusal.




         -
                 Dr.-               and Dr.-divided                       up the     proposals for review, with




                                                                                                          -
         Dr.-an --                    the three proposals submitted by             universities, including the

                 proposal, and Dr.-                    handling the review of the      I                University 1

         -proposal.                  After a mail and panel review of the             proposals, Drs.d-

                        discussed which universities to select to present their proposal at the NSF Reverse Site

         Visit in June of 19 1. Dr. -did                    not discuss the                University /

         proposal. Although t h a A                      proposal was not discussed substantively, because of its
 I
     i




          Dd
           -sr.                 -
          high rating, a n ~ t h e r l l ) ~ r o ~ o s awas

                                             selected -

          participate in the Reverse Site Visits.
                                                        l discussed by both Dr. -and                   ~r-

                                                                         University as one of 15 universities to




                    During the Reverse Site Visits, D           r        s     .       d led the discussions for the

          proposals that they had reviewed initially. Dr. -left                    the room during the Reverse Site

          Visit presentation- b                      University 1              however,                      Present

          during the Reverse Site Visit presentati~nby-&h4



                    Prior to the Reverse Site Visits, each of the 15 universities was sent a list of issues that

         it had to respond to during its presentation, and each university response was included in the

         proposal jackets.        After the Reverse Site Visits were conducted, Drs.                  and-
,i
         reviewed the university responses and discussed which universities to recommend for

         funding. Dr. e           v    e     r saw hte-                      University I   I)propod             or

         response, and he did not discuss with Dr.-hether                          that proposal should be funded.

         Dr.              told us that she did not discuss the-roposal                      with Dr. -,         but

         Dr.      recollection is that they discussed all of the proposals (except for the-                            I
         one). In making this decision, Dr-                    and             were not limited to recommending

         six          proposals for award; in fact, they expected to recommend as many as ten proposals.

         ~-d
           rs.-                            select-                   and five other universities to receive

         funding.
    .
#
    .
                Dr. -and          Dr.              each maintained their previously held responsibility for

        three of the six universities awarded funding. This responsibility now included handling all pre-

        award budget negotiations with the universities prior to the awards being made in November

I ~ o - -
        ~ D r ( l l L a k.
                         t a h a i n e d responsi'iility tor

        theCII)universitY I




        the
               Although Dr.




        award jacket.
                              -
        maintained responsibility for t      h     e



                                            maintained responsibility for the   -
                                                           award and two other awards, and Dr.

                                                                 award, and two other awards.




        during the spring and summer of 19 , and the summer of 19 , some documents relating to

                                were addressed by o-t               ~ r .
                                                                                                      award,



                                                                                    and later included in the




               In November 19 , the six universities were awarded               funding through cooperative




                                                                 -
        agreements with NSF. In early 19           NSF received new proposals in response to the second

        solicitation for        awards.      Dr.              iewed at least two proposals from

        universities (neither of which was submitted.-yb




              -
               On March 30, 19 , Drs.                      and               signed a recommendation for

        supplemental funding for the -AMP                   and t        h         e University       . The

        supplemental funding was awarded for the specific purpose of establishing an              newsletter,

        to be produced by t       h     e and -programs.              In addition, both D
                                                                                        d-.r

        Dr.             presided over the          Panel Meeting on April         19 , where future
3
    awards were discussed in the presence of at least one-official.                        Dd-sr.

                  also presided over the         Evaluation Meeting on April      , 19      where the review

    and rating procedures of the six initial             awards were discussed with the PIS on the awards,




                On or after April          19    the PI on the                            award spoke with

    Dr. bout'              taking over his position as PI when her NSF appointment ended in September

    of 19         The PI of the-                       stated that he approached Dr. n(               a break

    during the April         , 19           Evaluation Meeting to discuss the PI position. In contrast,

    Dr. -ted               that the PI contacted her over the telephone sometime in May 19          to discuss

    the position. Once the job negotiations began, d-D                        not muse herself from any

    official dealings with -verity.



                On June     and July       19    Dr. m       e    t and received advice from NSF's Acting

    DAEO on: 1) accepting the position at                         University, 2) conducting two           site

    visits a e r departing from NSF in September of 19                and 3) attending the            Project

    Directors' Meeting in September 19              During the meetings, the DAEO asked Dr.-

    about her level of involvement with t              h               award, and she stated that she had

    not been involved with that award. The Acting DAEO stated that he provided general advice

    to Dr-explaining                   the conflicts rules to her and advising her about specific dealings

    with NSP after her departure. The Acting DAEO did not believe that he provided any specific

    advice to ~                rbecause if he. had, he would have provided that advice in writing, and he
 6
       had no records of any written advice to her. In contrast, ~        r     e    v    e thatsthe Acting
 I

       DAEO did provide specific advice to her, stating that the one-year post-employment restriction

       applied to her when departing from NSF. In accordance with her understanding that the one-
                 . .
v--~~fitn)lPTnr-nn,se--                                                                                       I
                                                                                                              I
       or other matters before NSF or other federal officials until November 19                               I



                                                                                                              i

               The Acting DAEO approved Dr. .'
                                             service as an NSF consultant on the

       following three occasions after her departure, as indicated in a July             19   memo from

       Dr.             to       s Deputy Division Director*:



               The site visit of the -AMP              on September           19


 )                                                                                                                i
               The site visit of the-              University
                                                           MA
                                                            P' /                     of September
                                                                                                                  I

                                                                                                                  I
               19                                                                                                 I
                                                                                                                  I




               The Project Directors' Meeting from September       , 19       through September     19


             h this memo, Dr. w states that she has explored with the DAEO the issue of
      conducting two         site visits in September 19 after her departure from NSF, and that he
      saw no problem with it as long as she followed one of three approaches: 1) continue her
      employment with NSF until the end of September with many days of leave of absence, 2) depart
      NSF at the end of August 19 and return as a consultant in September 19 or 3) depart NSF
      at the end of August 19 and develop a contract with NSF for her services in September 19
      ~      r            0 the second approach. Dr. I also stated in this memo that she
                   . followed
      discussed with the DAEO the issue of attending the September 19 Project Directors' meeting
      and he suggested that she return to NSF as a consultant for this meeting rather than as an
      Program Director. ~r.-             followed this advice, and served as a consultant to NSF during
      the meeting.
 I


                                                       7
,
     D   -
                      In a letter dated July 10, 19                    University officially offered Dr.

              the PI position and she accepted. On August 6, 19 , an attorney from NSF's OGC conducted

                                           r.
                                                                                                              -
                    -
              an exit interview with Dr.    According to ~r.-                         the exit interview was a short



              employment restrictions, and 2) whether she was involved in any NSF procurement activities.

              Dr.              told the OGC attorney that she understood the different NSF post-employment

              restrictions, and that she had not been involved in any procurement activities during her tenure

              at NSF. D-rs.o               told the OGC attorney that she had met with the Acting DAEO prior

              to the exit interview to discuss NSF post-employment restrictions. The OGC attorney who

              conducted the exit interview had no specific recollections of his meeting with D
                                                                                             .-r

              OGC does not routinely keep notes of exit interviews with departing employees, and therefore,

              had no notes of the exit interview with Dr.                However, the OGC attorney stated that
,i
              NSF post-employment restrictions are reviewed in detail during all exit interviews. In addition,

              any questions posed by departing employees are answered, and specific advice regarding conflict

              of interest matters is often provided.



                      D        r   . resigned from her position at NSP on August                  19    and began her

             employment as Acting PI on the-                        on September , 19             although she was not

             officially appointed to the position of Acting PI until May              19 3.       Dr-          has not

             represented t          h               award before NSF or federal officials since her departure.

             -university                officially appointed the former PI on t   h     e     n           as Substitute

             Negotiator for the award.
.   I
         Pindings Concaning Dr.                 -
                    We found no evidence of any violations of 18 U.S.C.Section 208 or related NSF conflict



         Manual 15.           After April             19     the earliest likely date of job negotiations between

         Dr. d                                      university,*we found no evidence that ~r-as                  dealing
                                                                                                                  /

         with th-                               award in her official NSF capacity as             Co-Program Director,

         or that she took any actions in favor of t                h        e        w award at, or after, that time. We

         also found no violations of 18 U.S.C. Section 207 or related NSF conflict of interest regulations

         regarding post-employment restrictions as set out at 5 682.10 and 5 682.20 of NSF Manual 15.



                    However, we believe that the following actions by Dr.-mise                    -         a substantial
    I

         question whether she participated personally and substantially in the                                    award:



                    ~r.-                was involved in the implementation awards of the              Program from their

                    inception and was one of the authors of                     evaluation procedures.



                    Dr. 'participated                 in discussions about which universities to invite to the

                    Reverse Site Visits in June 1 1. w                  a            s one of 15 universities selected to

                    participate.

         --            -   -    -       -   -   -




               We were unable to determine the exact date Dr. -egan               negotiating with m R
        -niversity           for the PI position because of a discrepancy about where and when the actual
          negotiations started.
    L

    ' -   * *

s                Dr. p a r t i c i p a t e d in the Reverse Site Visit of the M                     proposal, and

                 afterwards, in discussions of that proposal along with the five other proposals

                 recommended for funding.                 ~ r . w r e v i e w e dmaterials submitted by the




                 Dr. QCII1(L.eceived documents during the spring and summer of 19                 and the summer
                                                                                                                    i

                 of 19     relating to the 7                            .                                           i




          8      On March             ,1    , Dr. m g n e d the recommendation for supplemental funding             I


                 for t    h      e     e    -                         awards.
                                                                                                                    I

          8      From April            ,1       , ~ rI r. e s i d e d over the      Panel Meeting where at least
I
                 one -official                     was present.



                 On April             19    Dr-             presided over the        Evaluation Meeting, where

                 discussions of             evaluation procedures were held with the PIS on the six initial

                 awards including the PI on the a w a r d .

                                 E,


                 On the basis of these facts, and absent contrary information from Dr. -NSP's

          Acting DAEO concluded that ~r.-ersonally                     and substantially participated in the   m
                         award matter while employed by NSF. He so advised Dr.                           over the
        -   =

    .   .                                                                                    1
                                                                                             .


                                                                                                 1
    i
                4   .    r
"
    •                   telephone on August       , 19     He followed up on this advice in a letter to Dr.M
                                                                                                           -

                        September        19




                                In this case, the Acting DAEO inquired about Dr.evlel'               of involvement with

                        the                     award, which was her intended future employer, and she said that she had

                        had none. When provided with the information gleaned from our review of the program files,

                        however, the DAEO concluded that while employed by NSF, Dr.                        personally and

                        substantially participated in hte-AMP                award, which is her current employer.           1i
                               Avoiding conflicts of interests is the personal responsibility of individual cumnt and

                        former NSF employees.       ~k   believe this case developed as it did because D          r relied
                                                                                                                              I

                        on her recollection of her actions regarding the -AMP               award. We recommend thut,

                        in circumstances where an NSF employee is leaving NSF to work on an NSF-funded project,

                        OGC ethics counsellors suggest to the employee that the employee review the NSF program




                                                           -
                    jacket for that project for any indications of involvement by thut employee -particularly the

                    presence of thut employee's name and/or signature on documents in the jacket             - and then
                    discuss with the ethics counsellor the signijtcance of any such indications. I f Dr.-            had

                    conducted such a review of the                            jacket, we believe it likely that she would

                    have found the documents with her name and signature that formed the basis for this

                    investigation, and resolved the issues with the OGC ethics counsellor before she left NSF.
